w
No.

20-7911

STAFlf WFTPAUI

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

APR 2 0 2021
ANTHONY ATES- PETITIONER,

OFFICE OF THE CLERK

VS.

MARK INCH, AND ASHLEY MOODY- RESPONDENT(S).

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ANTHONY ATES DC No.: 082828
Everglades Correctional Institution
1599 SW 187th Avenue
Miami, Florida, 33194 - 2801
305-228-2000
(Phone Number) Warden

RECEIVED
MAY 3 - 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

*-

QUESTION(S) PRESENTED
Whether the courts below decided an important federal question in a way that
conflicts with the relevant decisions of this Honorable Court when they denied
Petitioner’s petition for writ of habeas corpus as untimely in violation of
Petitioner’s right to due process under the United States Constitution.

11

V -

LIST OF PARTIES
[ X]

All parties appear in the caption of the case on the cover page.

[ ]

All parties do not appear in the caption of the case on the cover page. A
list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:

in

i-

TABLE OF CONTENTS

Description

Page

Question Presented
List of Parties
Table of Contents

IV

Table of Authorities

v

Opinions Below

1

Jurisdiction

3

Constitutional and Statutory Provisions Involved

5

Statement of the Case

6

Statement of the Facts

7

Reasons for Granting the Writ

9

Conclusion

14
INDEX TO APPENDICES

APPENDIX A,

Opinion of the United States Court of Appeals for the Eleventh
Circuit denying motion for certificate of appealability, dated
February 21,2020.

APPENDIX B,

Order from the United States District Court for the Southern
District of Florida denying Petitioner’s petition for writ of habeas
corpus and request for an evidentiary hearing, dated May 15,
2018.

APPENDIX C,

Opinion of the United States Court of Appeals for the Eleventh
Circuit denying motion for rehearing, dated February 11,2021.

IV

V

■

TABLE OF AUTHORITIES CITED
Page

Cases
Lodge v. Kondaur Capital Corp., 750 F.3d 1263, 1273 (11th Cir. 2014)
Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595 (2000).

9

Spencer v. United States, 773 F.3d 1132, 1138 (11th Cir. 2014)
Webster v. Moore, 199 F.3d 1256, 1259 (11 th Cir. 2000)

10

Statutes
4

Tittle 28 U.S.C.§ 1257(a).
Constitution
Sixth Amendment. U.S. Const

5

Fourteenth Amendment. U.S. Const

5

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[X]

For cases from federal courts:

The opinion of the United States court of appeals appears at Appendix
A_to the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished.

The opinion of the United States district court appears at Appendix _B
to the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at

; or,
1

% '

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the Eleventh Judicial Circuit in and for Miami-Dade
appears at Appendix B to the petition and is
or,

[ ] reported at

[ ] has been designated for publication but is not yet reported; or.
[ ] is unpublished.

2

JURISDICTION
[X ]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 21,2020.
[ ] No petition for rehearing was timely filed in my case.

[ X ] A timely petition rehearing was denied by the United States Court
of Appeals on the following date: February 11, 2021, and a copy of
the order denying rehearing appears at Appendix C.

[

] An extension of time to file the petition for a writ of certiorari was

granted to and including

(date) on

(date)

in Application No.__ A

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ ]

For cases from state courts:
The date on which the highest state court decided my case was.
[

] A timely petition rehearing was thereafter denied on the following

date:

and a copy of the order denying rehearing

appears at Appendix
[

] An extension of time to file the petition for a writ of certiorari was

granted to and including

(date) on

Application No.__ A

3

(date) in

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
AMENDMENT 6
Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to
be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
AMENDMENT 14
Section 1.

[Citizens of the United States.]

All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of fhe United States and
of the State wherein they reside. No State shall make or
enforce any law which

shall

abridge the

privileges

or

immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.

5

4

4

STATEMENT OF THE CASE
Petitioner is currently serving a sentence of thirty years. His convictions and
sentences were imposed in the Circuit Court of the Eleventh Judicial Circuit in
and for Miami Dade County in case numbers 94-CF-11073 and 95-CF-34118.
Petitioner, Anthony Ates, filed his pro se petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254 while in custody of the Florida Department of
Corrections. This Cause was assessed for consideration and relief in the United
States District Court for the Southern District of Florida.
On May 15, 2018, the United States District Court for the Southern District of
Florida denied Petitioner's petition for writ of habeas corpus and request for an
evidentiary hearing, The United States District Court denied certificate of
appealability. Petitioner filed a timely notice of appeal. Subsequently, Petitioner
sought certificate of appealability from the United States Court of Appeals for
the Eleventh Circuit.
On February 21, 2020, the United States Court of Appeals for the Eleventh
Circuit denied Petitioner’s motion for certificate of appealability. Petitioner filed
for rehearing, which was denied on February 11,2021.

6

STATEMENT OF THE FACTS
Petitioner Ates is serving a thirty-year sentence in Florida for aggravated
battery, armed robbery, and violation of community control. After filing several
postconviction motions in state court, Ates filed a petition for a writ of habeas
corpus in the United States District Court for the Southern District of Florida.
A magistrate judge reviewed Ates's petition for timeliness. Because the
one-year period in which a petitioner must file his petition is tolled while he has a
pending state postconviction motion, the magistrate judge took judicial notice
of the online state trial and appellate court dockets from Ates's State
proceedings to determine the relevant dates for the limitations period. It
concluded that Ates's petition was untimely and recommended dismissing the
petition on that ground.
Petitioner objected to the magistrate judge's report. He acknowledged
that he filed his petition after the limitations period but argued that he was
entitled to statutory and equitable tolling. Petitioner objected to the number of
motions or petitions considered by the District Court in finding Petitioner untimely
in Federal Court. The District court adopted the magistrate judge's report and
dismissed the petition as untimely after concluding that Ates filed his petition well
beyond the one-year limitations period and that he was not entitled to equitable
tolling. Ates appealed and argued in his motion seeking certificate of
appealability in the United States Court of Appeals for the Eleventh Circuit that

7

the District Court erred in dismissing his petition after taking judicial notice of his
online state-court records instead of considering the official state-court records.

8

•’

*

REASONS FOR GRANTING THE PETITION
The lower courts’ decisions erred in denying Petitioner’s motion for
certificate of appealability when the United States District Court took judicial
notice of the online state trial and appellate court dockets from Ates' State
proceedings to determine the relevant dates for the limitations period. The
United States District Court was incorrect in the sua sponte dismissal of
Petitioner’s petition for writ of habeas corpus as untimely.

Additionally, the

decision below is erroneous, and the issue that it addresses is important.
I. The United States Court of Appeals erred in
denying the Petitioner’s motion for certificate of
appealability on the around that the United States
District Court incorrectly took judicial notice of the
online state trial and appellate court dockets from
Ates'

State

proceedings

to

determine

the

relevant dates for the limitations period.
In order to obtain a COA, a petitioner must make "a substantial showing of
the denial of a constitutional right." 28 U.S.C. 2253(c)(2). Where the district court
has denied a 2254 petition on procedural grounds, the Petitioner must show that
jurists of reason would find it debatable whether (1) the district court was correct
in its procedural ruling, and (2) the petition states a valid claim of the denial of a
constitutional right, or that the issues "deserve encouragement to proceed
further." Slack v. McDaniel, 529 U.S. 473, 484, 120S. Ct. 1595 (2000).

9

fi.

'

Under the Antiterrorism and Effective Death Penalty Act ("AEDPA"), 2254
petitions are governed by a one-year statute of limitations that begins to run on
the latest of four triggering events, including "the date on which the judgment
became final by the conclusion of direct review or the expiration of the time for
seeking such review." 28 U.S.C. 2244(d)(1)(A). The Supreme Court has explained
that "[fjinality attaches when [it] affirms a conviction on the merits on direct
review or denies a petition for a writ of certiorari, or when the time for filing a
certiorari petition expires." Clay v. United States, 537 U.S. 522, 527, 123 S. Ct. 1072,
1076 (2003).
The limitation period is statutorily tolled for "[t]he time during which a
properly filed application for state post-conviction or other collateral review with
respect to the pertinent judgment or claim is pending.” 28 U.S.C. 2244(d)(2). "A
state-court petition . . . that is filed following the expiration of the limitations
period cannot toll that period because there is no period remaining to be
tolled." Webster v. Moore, 199 F.3d 1256, 1259 (11th Cir. 2000) (per curiam).
Petitioner submits that reasonable jurists could debate the District Court's
determination that Mr. Ates' 2254 petition was untimely. Although the clerk
entered into the record several documents from Mr. Ates’ underlying criminal
proceedings, the Magistrate Judge and the District Court largely relied on
copies of the state courts' electronic dockets and unofficial records to
determine that Mr. Ates’ 2254 petition was untimely. While Federal Rule of
Evidence 201 permits a court to take judicial notice of a fact that is not subject

10

to reasonable dispute, the taking of judicial notice is a "highly limited process."
Lodge v. Kondaur Capital Corp., 750 F.3d 1263, 1273 (11th Cir. 2014) (quotation
omitted). This is because "the taking of judicial notice bypasses the safeguards
which are involved with the usual process of proving facts by competent
evidence in district court." Id. (quotation omitted). Although Federal Courts have
previously held that District Courts may sua sponte dismiss 2254 petitions as timebarred, see In re Jackson, 826 F.3d 1343, 1348 (11th Cir. 2016) (per curiam),
Federal Courts have not addressed the depth of the record they must develop
before doing so, particularly before the state has appeared in the case.
Thus, reasonable jurists could debate whether the District Court properly
dismissed the petition based on information from copies of electronic dockets
and unofficial records from state court. See Fed. R. Evid. 201(b)(2) (judicial
notice is appropriate when a fact "can be accurately and readily determined
from sources whose accuracy cannot reasonably be questioned"). Petitioner
affirms that a certificate of appealability should be warranted on this issue.
Additionally, reasonable jurists could debate whether the District Court
was correct in its procedural ruling that Mr. Ates’ 2254 petition was time-barred.
On this line, this Court should determine whether reasonable jurists would
debate whether Mr. Ates’ 2254 petition stated a valid claim of the denial of a
constitufional right. See Spencer v. United States, 773 F.3d 1132, 1138 (11th Cir.
2014) (en banc) ("[A] certificate of appealability, whether issued by this Court or
a district court, must specify what issue jurists of reason would find debatable.

11

'4 ‘

Even when a prisoner seeks to appeal a procedural error, the certificate must
specify the underlying constitutional issue.").
As with its time-bar determination, the District Court relied on seldct
documents, which it placed in the record, to determine that all of Mr. Ates
claims lacked merit. Petitioner asserts that it should be difficult for this Honorable
Court to determine whether any of Mr. Ates’ claims are meritorious without
examining the entire state court record. The case law does not affirmatively
answer whether the record considered by the District Court here sufficed for a
sua sponte dismissal. Consequently, the District Court's review of, and reliance
upon, only select documents that it placed in the record was arguably
insufficient to determine whether Mr. Ates’ claims failed on the merits.
Mr. Ates’ 2254 petition included a claim that counsel’s failure to object to
sentencing error in Petitioner’s case deprived him of counsel guaranteed by the
Sixth Amendment of the United States Constitution. Thus, Petitioner’s § 2254
petition states at least one facially valid claim for the denial of a constitutional
right.

Spencer, 773 F.3d at 1138. Reasonable jurists could debate both the

District Court's resolution of the procedural issue in this case and whether it had
a sufficient record to deny Mr. Ates’ petition on the merits. Slack, 529 U.S. at 484,
120 S. Ct. at 1604.
For these reasons, Mr. Ates’ motion for a certificate of appealability should
have been granted on the following issue:

12

Whether the District Court erred in determining sua sponte that Mr. Ates
28 U.S.C. 2254 petition was time-barred without reviewing the complete,
official state court record.
On the above states facts, arguments and law, it is submitted to this
Honorable Court that the lower courts erred in determining sua sponte that Mr.
Ates’ 28 U.S.C. 2254 petition was time-barred without reviewing the complete,
official state court record.
II. The Question Presented is Important.
Petitioner is presenting an important Federal question of constitutional
dimension in which the lower courts did not reasonably apply the standard set
up in Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 1604, 146 L. Ed. 2d
542 (2000) to the instant case.
In this case, this Honorable Court should set a new precedent requiring
that cases like the Petitioner’s be granted certificate of appealability because
reasonable jurists could debate both the District Court's resolution of the
procedural issue in this case and whether it had a sufficient record to deny Mr.
Ates’ petition on the merits.

13

CONCLUSION

The Petitioner respectfully prays that this Honorable Court grants his
petition for a writ of certiorari.

Respectfully submitted,

Anthony Ate/; DC No.: 082828
Everglades Correctional Institution
1599 SW 187th Avenue
Miami, Florida, 33194 - 2801
305-228-2000
(Phone Number) Warden

Date:

7-n-^t

14

